TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    Although Strong Efforts Were Made, a
                 Significant Amount of the Telephone Excise
                Tax Overcollected From Individual Taxpayers
                           May Never Be Refunded



                                      September 26, 2007

                              Reference Number: 2007-30-178




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                             DEPARTMENT OF THE TREASURY
                                                  WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           September 26, 2007


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT


 FROM:                   (for) Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – Although Strong Efforts Were Made, a
                              Significant Amount of the Telephone Excise Tax Overcollected From
                              Individual Taxpayers May Never Be Refunded (Audit # 200630036)

 This report presents the results of our review of the Telephone Excise Tax Refund (TETR)
 program. The overall objective of this review was to determine whether the Internal Revenue
 Service (IRS) took proper steps to facilitate the refunding of the Federal excise tax on toll
 telephone services. This audit was conducted based on a request from the Deputy Commissioner
 for Services and Enforcement.

 Impact on the Taxpayer
 After several court decisions held that the excise tax the IRS was collecting on long-distance and
 bundled telephone service was inappropriate, the IRS implemented a major program for
 taxpayers to receive refunds for the portion of their excise taxes paid on these services. It
 estimated between 145 million and 165 million individual taxpayers would be eligible to claim
 the TETR. Because the IRS had collected approximately $8 billion in telephone excise tax from
 individual taxpayers, it had a goal to return as close to this amount as possible while minimizing
 the total refunds made above this amount. However, based on the refund claims processed
 through June 9, 2007, we believe a significant amount of the telephone excise tax collected could
 go unrefunded, and many taxpayers may still be eligible to file claims.
                          Although Strong Efforts Were Made, a Significant Amount
                              of the Telephone Excise Tax Overcollected From
                                Individual Taxpayers May Never Be Refunded



Synopsis
With some exceptions, the IRS successfully planned and implemented the TETR program. Its
efforts included revising tax forms, developing strategies to educate taxpayers regarding the
availability of the refunds, and developing methods and forms for taxpayers to claim either
(1) a standard amount for the TETR without having to incur the burden required to obtain
substantial documentation from 41 months of telephone bills or (2) actual amounts as
documented on their telephone bills. The IRS also developed a new form to enable taxpayers
who otherwise would not have to file tax returns to make TETR claims. Despite these efforts,
much of the overcollected tax may go unclaimed and unrefunded. As of June 9, 2007, about
87.6 million (71.5 percent) of the approximately 122.6 million taxpayers that had filed their
individual income tax returns had made a TETR claim. The refunds associated with these claims
totaled only $3.8 billion, or 48 percent of the $8 billion collected.1
Although we could not definitively determine why the number of taxpayers claiming the credit
and the total amount they claimed did not meet IRS estimations, we believe two important
factors contributed to these conditions: (1) the standard amounts developed by the IRS were
used by more taxpayers than expected and (2) despite the IRS’ significant efforts to
communicate the TETR program to taxpayers, many remained uninformed.
Certain processing controls needed to be strengthened to ensure taxpayers claiming amounts
greater than one of the standard amounts included the required documentation, Credit For
Federal Telephone Excise Tax Paid (Form 8913), to support their claims. Also, performance
data used by the IRS and reported to the Treasury Inspector General for Tax Administration and
the Government Accountability Office were not always accurate. Upon notification, the IRS
took immediate corrective action to strengthen these controls.
Erroneous claims filed were often unchallenged by the IRS. Many taxpayers claimed refunds of
the total amounts of their telephone bills rather than just the excise tax portion of those bills.
This may have been caused in part by a misunderstanding of Form 8913 (which was not focus
tested before implementation). In other cases, the claims may have been intentionally overstated.
The IRS did scrutinize some claims but only if the amounts claimed exceeded a certain dollar
threshold. The IRS’ rationale for looking only at claims above this dollar threshold was its
competing priorities for examination resources. Management believed that, to work more TETR
cases, they would have to forgo working other more productive cases.
During the audit, we recommended the IRS reexplore all options at its disposal to address
significantly more inappropriate TETR claims, including sending notices offering taxpayers the
opportunity to self-correct their returns. The IRS made no adjustments to its dollar threshold and
chose not to offer taxpayers the opportunity to self-correct. In our opinion, the results of actual

1
    We were informed by the IRS on August 6, 2007, that just over one-half of the $8 billion has now been refunded.
                                                                                                                      2
                    Although Strong Efforts Were Made, a Significant Amount
                        of the Telephone Excise Tax Overcollected From
                          Individual Taxpayers May Never Be Refunded


IRS examinations conducted of TETR claims indicate that notices offering taxpayers the chance
to self-correct their claims would have been very effective and should have been pursued by the
IRS as we recommended. The IRS has reported that through May 2007 more than 97 percent of
the TETR examinations resulted in a change to the amount of credit claimed. On these cases, the
amounts were significantly reduced, or were changed to a standard amount, as requested by the
taxpayers once they were contacted and asked to provide evidence of the excise taxes paid.
Although data on this subject were not collected, IRS tax examiners indicated taxpayers were
claiming the entire amounts shown on their telephone bills and most often attributed the mistake
to their tax preparers or confusion with the Form 8913.
If the IRS had sent to the more than 52,000 taxpayers included in our analysis notices giving
them the opportunity to self-correct their claims before the refunds were issued, and if even
50 percent of these taxpayers had amended their claims (as compared to the 97 percent change
rate experienced by IRS employees conducting examinations), the IRS could have avoided
paying erroneous refunds totaling $23,377,443.
Also, as a result of filing TETR claims, more than 26,000 taxpayers were to be mailed tax
packages for Tax Year 2007, even though they had no income, no deductions, and no credits
other than the telephone tax excise credit, and therefore would not be required to file tax returns.
We alerted the IRS to this condition, and it requested the details for the taxpayers so the tax
packages would not be mailed.

Recommendations
With the TETR, the IRS was attempting to reach virtually every facet of the taxpaying
population and is in a unique position to evaluate its communications efforts on different
taxpayer demographics. We recommended the Commissioner, Wage and Investment Division,
identify demographics that had relatively low rates of TETR claims and provide additional
information to these taxpayers on how they might still claim the refund; evaluate outreach
methods used to notify taxpayers and determine what was and what was not effective; and use
the information gained from the evaluation to develop more effective outreach programs in the
future. We also recommended the Commissioner ensure new forms, particularly those of a
complex nature, are focus tested on some level before issuance and follow up to ensure tax
packages are not mailed to the taxpayers we referred to the IRS.

Response
IRS management did not agree with all of the opinions expressed in the report; however, they did
agree with the recommendations. Specifically, the Commissioner, Wage and Investment
Division, has already implemented efforts to use demographics as a means to focus on taxpayers
who may have been eligible for the TETR but did not claim it. Also, the Commissioner, Wage

                                                                                                   3
                   Although Strong Efforts Were Made, a Significant Amount
                       of the Telephone Excise Tax Overcollected From
                         Individual Taxpayers May Never Be Refunded


and Investment Division, has identified “lessons learned” based on IRS communications that will
be used to develop outreach strategies for future initiatives. In addition, the Commissioner,
Wage and Investment Division, agreed to assess on a case-by-case basis the need for new forms
to be focus tested and agreed to manually suppress the mailing of unnecessary tax packages to
taxpayers. Management’s complete response to the draft report is included as Appendix IV.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Small Business and Corporate
Programs), at (202) 622-5894.




                                                                                             4
                            Although Strong Efforts Were Made, a Significant Amount
                                of the Telephone Excise Tax Overcollected From
                                  Individual Taxpayers May Never Be Refunded




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          With Some Exceptions, the Internal Revenue Service Successfully
          Planned and Implemented the Federal Telephone Excise Tax Refund ....... Page 3
          A Significant Amount of the Telephone Excise Tax May Never Be
          Refunded .......................................................................................................Page 5
                    Recommendation 1:........................................................Page 7

          Many Taxpayers May Have Misunderstood the Form 8913 and Related
          Instructions and Claimed Refunds of Their Entire Telephone Bills.............Page 7
                    Recommendation 2:........................................................Page 8

          A Significant Number of Claims on Forms 8913 That Were Obviously
          Either Incorrect or Potentially Abusive Were Processed and Refunded
          Without Being Challenged............................................................................Page 9
          Controls Needed Strengthening to Ensure Taxpayers Claiming More
          Than Standard Amounts Had Adequate Documentation to Support
          Their Claims..................................................................................................Page 12
          Some Taxpayers Will Be Mailed 2007 Tax Packages Even Though
          They Will Not Be Required to File 2007 Tax Returns .................................Page 13
                    Recommendation 3:........................................................Page 14

          Performance Data Relating to the Telephone Excise Tax Were Not
          Always Accurate...........................................................................................Page 14

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 16
          Appendix II – Major Contributors to This Report ........................................Page 20
          Appendix III – Report Distribution List .......................................................Page 21
          Appendix IV – Management’s Response to the Draft Report ......................Page 22
       Although Strong Efforts Were Made, a Significant Amount
           of the Telephone Excise Tax Overcollected From
             Individual Taxpayers May Never Be Refunded




                   Abbreviations

FY           Fiscal Year
IRS          Internal Revenue Service
TETR         Telephone Excise Tax Refund
                        Although Strong Efforts Were Made, a Significant Amount
                            of the Telephone Excise Tax Overcollected From
                              Individual Taxpayers May Never Be Refunded




                                              Background

The Telephone Excise Tax has been imposed since 1898, when it was created to fund the
Spanish-American War. Originally, the tax applied to all telephone use; later, it was revised to
apply to long-distance calls on which call duration and distance were factored into the price.
However, many telecommunications companies made changes to their billing models, factoring
only call duration and not distance into their billing prices. As a result, these charges no longer
met the requirements of the tax code and should not have been subject to tax.1 Several
businesses litigated the taxability of these portions of the Telephone Excise Tax and, after five
circuit court losses, the Internal Revenue Service (IRS) conceded the issue. It implemented a
major program for taxpayers to receive refunds for the portion of their telephone excise taxes
paid on long-distance or bundled service billed after February 28, 2003, and before
August 1, 2006, that did not meet the statutory taxability requirements.
The Telephone Excise Tax Refund (TETR) was the most wide-reaching tax refund in the history
of the IRS, which estimated this one-time refund would affect between 145 million and
165 million individual taxpayers including many who normally would not need to file tax
returns. The IRS developed a process to timely refund these monies and made the request
process relatively easy for most taxpayers. At the same time, it wanted to minimize the number
of refunds in excess of taxes collected and discourage requests for overstated refunds.
To reduce the number of requests for overstated refunds and to minimize the administrative
burden on individual taxpayers, the IRS decided to offer individuals a standard refund amount.
Use of the standard amounts could significantly reduce taxpayer burden because no records were
needed to support taxpayers’ requests and individuals did not have to assemble 41 months’ worth
of telephone bills to determine their refund requests. Requesting a standard amount required the
completion of only one additional line on the U.S. Individual Income Tax Returns
(Form 1040 series).
Taxpayers were not required to request a standard refund amount. The IRS developed Credit for
Federal Telephone Excise Tax Paid (Form 8913), which taxpayers could use to claim amounts
higher than the standard amounts, and required that taxpayers attach a Form 8913 to their
Forms 1040 when requesting non-standard TETR amounts. It also developed a compliance
strategy to address egregious claims, including identifying tax returns with TETR claims
exceeding a certain dollar threshold and freezing the telephone excise tax portion of the refunds
associated with those returns until the claims could be audited.

1
 Five circuit court cases held that a telephonic communication for which there is a toll charge that varies with
elapsed transmission time and not distance (time-only service) is not taxable toll telephone service as defined in
Internal Revenue Code Section 4252(b)(1).
                                                                                                               Page 1
                       Although Strong Efforts Were Made, a Significant Amount
                           of the Telephone Excise Tax Overcollected From
                             Individual Taxpayers May Never Be Refunded



This review was performed at the IRS Campus2 in Ogden, Utah, during the period October 2006
through June 2007 and included review of tax information from returns filed and processed
nationwide, as well as evaluation of information provided by the IRS TETR working group
headed by the Director, Earned Income and Health Coverage Tax Credits, Wage and Investment
Division. The audit was conducted in accordance with Government Auditing Standards.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




2
 Campuses are the data processing arm of the IRS. They process paper and electronic submissions, correct errors,
and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
                                                                                                          Page 2
                     Although Strong Efforts Were Made, a Significant Amount
                         of the Telephone Excise Tax Overcollected From
                           Individual Taxpayers May Never Be Refunded




                                 Results of Review

With Some Exceptions, the Internal Revenue Service Successfully
Planned and Implemented the Federal Telephone Excise Tax Refund

Major tax forms and instructions were timely and accurately updated to allow
taxpayers to claim the TETR
The IRS added instructions and made appropriate changes to almost all the major income tax
forms. This included changes and instructions for all the individual income tax forms (the
Form 1040 series); development of Form 8913; and development of the Request for Refund of
Federal Telephone Excise Tax (Form 1040EZ-T), so individuals otherwise not required to file
income tax returns could submit TETR claims.
We reviewed each of the new and revised forms and their related instructions. With the
exception of the issue presented later concerning Form 8913, all of the forms were properly and
clearly composed, and instructions were logically and accurately presented.
In preparation for processing these new or revised tax forms, the IRS had to modify processing
procedures and instructions and/or computer programming involving (1) the acceptance of
electronically filed returns with the claims, (2) data entry of TETR information from paper
returns to IRS computers, (3) the resolution of errors on the returns, and (4) filters to identify and
inform taxpayers of inappropriate claims. With minor exceptions, the IRS successfully
accomplished these tasks.

The IRS developed detailed strategies to educate taxpayers regarding the TETR
provisions
The IRS developed an indepth Telephone Excise Tax Communications Subgroup Summary
Strategy, which outlined overall communications objectives, audiences, and key messages. Out
of this Strategy came an internal communications strategy, a comprehensive media strategy, and
the IRS Refund of Telephone Excise Tax Outreach Plan. Each Strategy/Plan had refined
objectives, messages, audiences, and steps to communicate those messages to the desired
audience. These documents were all consistent with the Summary Strategy and its objectives.
The IRS worked with a large number of external partners to disseminate information about the
TETR. Audiences that the IRS hoped to reach through these partners included groups such as
tax preparers, the elderly, members of the military, minors, and nonfilers.



                                                                                               Page 3
                   Although Strong Efforts Were Made, a Significant Amount
                       of the Telephone Excise Tax Overcollected From
                         Individual Taxpayers May Never Be Refunded



Information regarding the TETR is abundant on the Internet. The public IRS web site (IRS.gov)
home page has the information prominently displayed with easy links that provide more
information for individuals, businesses, tax-exempt entities, and nonfilers. Detailed questions
and answers for each of these groups were very informative. In addition, our examination of
various web sites found TETR references on newspaper web sites, tax practitioner sites, and even
the “Truth or Fiction” and “Urban Legends” sites (which properly identified the TETR as
“Truth”).

The standard amounts developed by the IRS were reasonable and effective
As stated in the Background section of this report, the IRS developed methods for individual
taxpayers to claim an approximate TETR amount without having to incur the burden required to
obtain all their bills from telecommunications companies and compute the exact amounts of
qualified TETR for the applicable 41-month period. Through the week ending June 9, 2007, IRS
records indicate that 99.5 percent of claims filed were for standard amounts.
We reviewed the methods and information used by the IRS to develop the standard amounts and
concluded that these methods were reasonable. The IRS considered many different factors in
developing the standard amounts, including actual assessed telephone excise tax as determined
by the Department of the Treasury, usage estimates taken from reliable telecommunications
industry statistics, and the need to make final estimated amounts or methods easy to use and
representative of the probable actual tax paid.
The standard amounts offered to individual taxpayers were linked to the number of exemptions
allowed on the individuals’ tax returns, as shown in Figure 1.
                            Figure 1: TETR Standard Amounts

                            Exemptions               Standard Amount
                                    1                          $30

                                    2                          $40

                                    3                          $50

                              4 or more                        $60
                      Source: 2006 Form 1040 Instructions (page 60).

Industry figures supported the nexus between telephone use and household size. Based on its
analysis, the IRS estimated total TETR amounts claimed by individuals using either a standard
amount or a Form 8913 would most likely exceed the actual tax paid by individuals during the
applicable period. This overpayment of refunds was acknowledged up front and was deemed


                                                                                         Page 4
                       Although Strong Efforts Were Made, a Significant Amount
                           of the Telephone Excise Tax Overcollected From
                             Individual Taxpayers May Never Be Refunded



acceptable by the IRS to increase the use of the standard amounts, which in turn would make the
refund claim process less burdensome for taxpayers.

A Significant Amount of the Telephone Excise Tax May Never Be
Refunded
The IRS estimated between 145 million and 165 million individual taxpayers would be eligible
to claim the TETR. Because the IRS had collected approximately $8 billion in telephone excise
tax from individual taxpayers for the applicable period, it had a goal to return as close to this
amount as possible while minimizing the total refunds made above this amount. As of
June 9, 2007, about 87.6 million (71.5 percent) of the approximately 122.6 million taxpayers that
had filed their individual returns had made claims. The refunds associated with these claims
totaled only $3.8 billion, or 48 percent of the $8 billion collected.3
We believe a significant amount of the telephone excise tax collected by the IRS may never be
refunded. Although we could not definitively determine why the number of taxpayers claiming
the credit and the total amount they claimed did not meet IRS estimations, we believe two
important factors contributed to these conditions.
First was the success of the standard amounts developed by the IRS. In its consideration of
various standard amounts, the IRS estimated approximately 74 percent of individual taxpayers
overall would choose a standard amount between $30 and $60. However, more than 99 percent
of taxpayers opted for a standard amount, which indicates taxpayers preferred to accept
potentially lower refunds in exchange for much less paperwork and burden.
Second, our limited data indicate many taxpayers were simply unaware of the TETR or were
unaware that they qualified for it. To get some idea why taxpayers were not claiming the credit
for a refund, we contacted nine4 taxpayers that had prepared their own returns and had not
claimed the TETR and determined the following:
    •   Six of the nine taxpayers had no knowledge of it.
    •   Two taxpayers were aware of it but had mistakenly believed they did not qualify for it.
    •   One taxpayer had correctly determined that he or she did not qualify for it.
Despite the IRS’ significant efforts to advise taxpayers of the TETR program, many were left
uninformed. These taxpayers may not have been reached by the methods the IRS used, or the
methods used to convey the message may not have captured the taxpayers’ attention. For
example, the IRS included information regarding the TETR on the front of each Form 1040


3
 We were informed by the IRS on August 6, 2007, that just over one-half of the $8 billion has now been refunded.
4
 Nine is the maximum number of people that can be contacted to collect information under the Paperwork
Reduction Act (5 C.F.R. § 1320.3(c)) (1995) without approval from the Office of Management and Budget. Time
constraints prevented us from obtaining this approval.
                                                                                                          Page 5
                       Although Strong Efforts Were Made, a Significant Amount
                           of the Telephone Excise Tax Overcollected From
                             Individual Taxpayers May Never Be Refunded



series income tax package and in the “What’s New” section of the instructions. Although the
message was accurate, it may not have been informative enough and it did nothing to attract a
taxpayer’s attention. Knowing that most households qualified for the TETR, the IRS could have
(1) let the taxpayers know just that and (2) leveraged other techniques to grab taxpayers’
attention, such as using bright color. By changing the message from, “You may be able to
request a credit for the federal excise tax paid on long distance or bundled telephone service,”
and using color (e.g., red) to inform the taxpayers, “You Most Likely Qualify for a One-Time
Refund of Taxes Paid on Your Long-Distance Telephone Bill,” the IRS might have ensured more
taxpayers were aware of this important message.
We cannot state what specific changes or additions to the IRS’ communications strategy would
have reached those taxpayers that were unaware of the TETR. However, because the IRS was
attempting to reach virtually every facet of the taxpaying population, it is in a unique position to
evaluate its communications efforts on different taxpayer demographics. For example, one
specific group of taxpayers that made relatively few claims involved those that were not
obligated to file individual income tax returns. Only 8 percent of the 10 million to 30 million
taxpayers in this group estimated by the IRS to be eligible for the TETR actually claimed it.5
The IRS can use this information to test the effectiveness of its communications efforts on this
and other demographics and to identify other nontraditional outreach options for certain
taxpayers.
As significant as the total number of taxpayers that did not claim the TETR is the fact that an
estimated $4 billion remains unclaimed by individual taxpayers.6 Collecting approximately
$8 billion and refunding nearly one-half that amount leaves one of the IRS’ major objectives for
this initiative unrealized, and additional efforts may be needed to ensure all taxpayers have an
opportunity to claim the TETR. Although the IRS intended to refund at least what was collected,
falling short by such a large portion leaves it open to criticism, particularly considering it was
responsible for refunding the money and communicating this fact to taxpayers.
The IRS has no plans to make the TETR available for Tax Year 2007 and expects taxpayers to
file amended returns for Tax Year 2006 if they failed to claim the credit. It has recognized the
need for additional efforts and plans to provide additional information in next year’s tax
packages and tax preparation software, to make taxpayers aware of how to claim the refund if
they need to amend their 2006 returns.




5
  Percentage was based on the number of taxpayers with no filing obligation that claimed the credit (approximately
800,000) and the most conservative number of taxpayers the IRS estimated to be eligible (10 million).
6
  Based on subsequent discussions with the IRS, this estimate may be just less than $4 billion.
                                                                                                           Page 6
                          Although Strong Efforts Were Made, a Significant Amount
                              of the Telephone Excise Tax Overcollected From
                                Individual Taxpayers May Never Be Refunded



Recommendation
Recommendation 1: The Commissioner, Wage and Investment Division, should identify
demographics that had relatively low rates of claims and provide additional information to these
taxpayers on how they might still claim the TETR; evaluate outreach methods used to notify
taxpayers and determine what was and what was not effective; and use the information gained
from the evaluation to develop more effective outreach programs in the future.
           Management’s Response: The Commissioner, Wage and Investment Division,
           agreed with this recommendation and has already taken steps to implement it. The IRS
           has reviewed demographic data throughout the filing season7 and performed targeted
           outreach as needed. Also, based on its communications, the IRS has identified “lessons
           learned” that will be used to develop outreach strategies for future initiatives. In addition,
           the IRS plans to include TETR information in the 2007 tax package and will work with
           tax preparation software providers to include guidance to taxpayers on filing amended
           returns or Forms 1040EZ-T to request the refund.

Many Taxpayers May Have Misunderstood the Form 8913 and Related
Instructions and Claimed Refunds of Their Entire Telephone Bills
We reviewed a random nonstatistical sample of 30 individual income tax returns and determined
taxpayers filing large TETR claims appeared to be entering the total amounts billed for
long-distance and bundled service rather than just the Federal excise tax associated with those
amounts. The IRS came to this conclusion on its own early in the 2007 Filing Season and
addressed it in a press release in late January 2007.
The instructions for Form 8913 expressly stated that taxpayers were to claim the amount of
Federal excise tax on long-distance or bundled service only, which amounts to 3 percent of the
amounts billed for these services. However, the column headings for taxpayers to enter those
amounts were labeled “Long distance service” and “Bundled service.” (See Figure 2)




7
    The filing season is the period from January through mid-April when most individual income tax returns are filed.
                                                                                                              Page 7
                     Although Strong Efforts Were Made, a Significant Amount
                         of the Telephone Excise Tax Overcollected From
                           Individual Taxpayers May Never Be Refunded



                                   Figure 2: Partial Form 8913




    Source: Internal Revenue Service Form 8913.

Taxpayers and preparers may have misunderstood those column headings and entered the total
amounts of their long-distance and/or bundled service. During examinations of their tax returns,
some taxpayers cited confusion with the Form 8913 as the reason their claims were so high.
The IRS had a very short amount of time to develop the Form 8913 and stated that this short time
period did not allow for the Form to be focus tested. In our opinion, if the IRS had focus tested
the Form (even on a very quick and informal basis, given the limited amount of time available to
develop the Form), it might have discovered that the Form could be misunderstood. Such a
discovery may have helped the IRS avoid many of the 11,541 TETR examinations initiated
through June 9, 2007.

Recommendation
Recommendation 2: The Commissioner, Wage and Investment Division, should ensure new
forms, particularly those of a complex nature, are focus tested on some level before issuance.
       Management’s Response: The Commissioner, Wage and Investment Division,
       agreed with this recommendation even though the IRS generally does not conduct focus
       tests for one-time use forms. In the future, the IRS will, on a case-by-case basis, assess
       whether focus testing should be conducted for new forms depending on the unique
       factors in each case (e.g., distribution to a large percentage of taxpayers).




                                                                                            Page 8
                        Although Strong Efforts Were Made, a Significant Amount
                            of the Telephone Excise Tax Overcollected From
                              Individual Taxpayers May Never Be Refunded



A Significant Number of Claims on Forms 8913 That Were Obviously
Either Incorrect or Potentially Abusive Were Processed and Refunded
Without Being Challenged
The IRS had developed a comprehensive Examination strategy to address the most egregious
TETR claims. Because it had very limited authority to recover TETR payments made to
taxpayers once they had been refunded, this strategy focused on prerefund screening and
examination.8 Approximately 22,500 examinations were originally planned for Fiscal Year
(FY) 2007; more than 13,700 of these examinations were planned for claims made by individual
rather than business taxpayers. In addition, very early in the 2007 Filing Season, the IRS issued
several news releases warning taxpayers and preparers about making specious claims. Further,
special agents9 from the IRS Criminal Investigation Division participated with revenue agents10
in a series of “educational” visits to return preparers involved in filing questionable claims.
Early in the 2007 Filing Season, we raised concerns about the implementation of the IRS
compliance strategy for TETR claims. We believed the dollar threshold used to identify
potentially egregious claims was set too high because it was significantly above the maximum
standard amount. We performed an analysis of more than 52,000 tax forms filed through
June 2, 2007, that contained claims for amounts we considered to be highly questionable but did
not meet the IRS criteria for further review. We found the following:
    •    The amounts on these claims totaled more than $43 million, plus an additional
         $6 million in interest claimed. The average claim for these cases was $826. Taxpayers
         would have to have spent more than $27,000 on long-distance fees over a 41-month
         period to qualify for claims of that amount.
    •    Taxpayers making 65 percent of these claims would have to have had yearly telephone
         bills amounting to more than 25 percent of their total annual incomes to justify the
         claims.
    •    Taxpayers making 16 percent of these claims would have to have paid more for
         long-distance or bundled telephone service in a year than their yearly incomes to justify
         the claims.




8
  A TETR that is subsequently determined to have been made in error may be recovered only by the Federal
Government’s filing of a suit for refund to recover any amount the taxpayer did not voluntarily repay. Because of
the high costs involved, the IRS expected very few TETR suits to be filed.
9
  Special agents are IRS law enforcement officers who investigate potential criminal and financial violations of the
Internal Revenue Code.
10
   Revenue agents are IRS employees responsible for planning and conducting examinations of individuals and
businesses to determine tax liability.
                                                                                                             Page 9
                         Although Strong Efforts Were Made, a Significant Amount
                             of the Telephone Excise Tax Overcollected From
                               Individual Taxpayers May Never Be Refunded



     •       More than 38,000 of these claims were on tax returns with no indication that the
             taxpayers were business owners (which might have explained a slightly higher
             long-distance telephone bill and thus a higher claim).
Many of these claims may have resulted from taxpayers and preparers misunderstanding the
Form 8913 and related instructions. Others appeared to be fraudulent based on (1) the amount of
the claim compared to the taxpayer’s total income, (2) the combination of credits and claims
made by the taxpayer, or (3) the filing patterns of the tax return preparer. We identified filing
patterns of paid preparers that had filed returns for many taxpayers with TETR claims exceeding
the standard amounts, but very few of these returns contained claims that exceeded the IRS
dollar threshold. These preparers seemed to have learned what would be accepted as filed by the
IRS. We referred the most egregious of these preparers to the IRS for action.
The IRS set its dollar threshold high because Examination function resources are limited and
because it believed examinations of Earned Income Tax Credit cases as well as other
discretionary Examination function cases would result in higher assessment rates than those from
the TETR claims discussed. We acknowledge that the IRS has to deal with limited Examination
function resources in deciding how many of these claims could be examined. However, we also
believe other factors should have been considered, including:
         •    The TETR issue became very high profile, with a great deal of effort made by the IRS to
              prevent the claiming and subsequent refunding of inappropriate credit amounts. For
              example, inappropriate TETR claims were the number one item in the IRS’ “Dirty
              Dozen” tax issues.11 In a news release issued early in the 2007 Filing Season,
              Commissioner Everson stated, “People requesting an inflated [TETR] amount will likely
              see their refund frozen, may have their entire tax return audited and even face criminal
              prosecution where warranted. We won’t stand idly by while some people try to cheat
              their neighbors and make off with money they don’t deserve.”
             If the IRS allows fraud to go unchecked in an area it has declared as a major priority, it
             may have a very negative effect on taxpayer compliance in the future.
         •    Inappropriate TETR claims had to be identified and stopped before refunds were issued
              because tax laws require that the Federal Government file suit in court to recover these
              refunds. Tax assessments resulting from most other Examination programs could be
              made without filing suit, even after refunds were issued, so these other Examination
              function cases were not nearly as time sensitive.
         •    TETR cases worked prior to refund release represented dollars already in the Federal
              Government’s possession. In contrast, other Examination function cases generally
              result in tax assessments that may or may not be collected. A recently issued Treasury

11
  The “Dirty Dozen” is an annual listing of notorious tax scams published by the IRS on its public web site
(IRS.gov)
                                                                                                          Page 10
                      Although Strong Efforts Were Made, a Significant Amount
                          of the Telephone Excise Tax Overcollected From
                            Individual Taxpayers May Never Be Refunded



         Inspector General for Tax Administration report12 points out that, in FY 2004, the IRS
         assessed more than $2.1 billion in additional taxes on high-income taxpayers through its
         Examination program. The report estimates approximately $1.2 billion
         (57 percent) of that amount was either abated or not collected after an average of
         608 calendar days from the date of assessment. Even if the assessments are collected,
         the costs of collection need to be factored in when comparing other Examination
         function cases to TETR cases.
     •   Taxpayers making legitimate mistakes may have very well been willing to self-correct
         their returns if they had been informed by the IRS, prior to refunds being issued, that
         they appeared to have claimed their entire telephone bills or entire long-distance or
         bundled service bills rather than just the Federal excise tax associated with their
         services.
During the audit, we recommended that, taking into consideration the factors listed above, the
IRS reexplore all options at its disposal to address significantly more inappropriate TETR claims,
including sending notices (prior to refunds being issued) that offered taxpayers the opportunity to
self-correct their returns; the postponement of some Examination function work; and the working
(or partial working) of some of the simpler TETR cases by non-Examination function
employees.
The IRS responded to our concerns but made no adjustments to its dollar threshold. The
response focused on the IRS’ competing priorities for Examination function resources;
management believed that, to work more TETR cases, they would have to forgo working other
more productive cases. The response did not address the recommendation to allow taxpayers to
self-correct; however, in discussions with the IRS, we were advised it had no plans to issue
notices to taxpayers to allow them to self-correct their errors because it believed such notices
would be ineffective, it had limited resources with which to work the responses, and there would
be many no-response cases to work.
In our opinion, the results of actual IRS examinations of TETR claims indicate notices offering
taxpayers the chance to self-correct their claims would have been very effective and should have
been pursued by the IRS as we had recommended. The IRS has reported that through May 2007
more than 97 percent of the TETR cases examined resulted in a change to the amount of credit
claimed. On these cases, the amounts were significantly reduced, or were changed to a standard
amount, as requested by the taxpayers once they were contacted and asked to provide evidence
of the excise taxes paid. Although data on this subject were not collected, IRS tax examiners
indicated taxpayers were claiming the entire amounts shown on their telephone bills and most
often attributed the mistake to their tax preparers or confusion with Form 8913.


12
  While Examinations of High-Income Taxpayers have Increased, the Impact on Compliance May Be Limited
(Reference Number 2006-30-105, dated July 25, 2006).
                                                                                                  Page 11
                       Although Strong Efforts Were Made, a Significant Amount
                           of the Telephone Excise Tax Overcollected From
                             Individual Taxpayers May Never Be Refunded



If the IRS had sent to the more than 52,000 taxpayers included in our analysis notices giving
them the opportunity to self-correct their TETR claims before the refunds were issued, and if
even 50 percent of these taxpayers had amended their claims, the IRS could have avoided paying
erroneous refunds totaling $23,377,443.13

Controls Needed Strengthening to Ensure Taxpayers Claiming More
Than Standard Amounts Had Adequate Documentation to Support
Their Claims
As stated previously, to reduce the number of overstated refund requests and minimize the
administrative burden on individual taxpayers, the IRS established standard TETR amounts. If a
standard amount was not claimed, a taxpayer was required to document the amount of TETR
claimed on Form 8913.

Dollar thresholds
One of the controls established to prevent erroneous claims from being processed involved
computer routines to identify returns claiming TETR amounts greater than the standard amounts
but without the required Forms 8913. The control established to catch this error was based on a
dollar threshold that, if exceeded, would flag the claim for further scrutiny in the IRS Error
Resolution function. Although IRS instructions required taxpayers to attach Form 8913 for any
claim of more than a standard amount, taxpayers’ claims were allowed without the Form unless
the claim was higher than a specified dollar threshold. We reviewed the amount of the dollar
threshold and determined that it was set too high, which allows some taxpayers to claim
erroneous TETR amounts without IRS detection.
A second control established to prevent refunding of erroneous claim amounts involved
comparisons of refund amounts entered on Forms 1040, Forms 1040A, or Income Tax Returns
for Single and Joint Filers With No Dependents (Form 1040EZ) with amounts entered on
Forms 8913. The amount on the Form 8913 should agree with the amount carried over to the
Form 1040 series return. If these entries disagreed by more than a specified dollar threshold, the
returns were identified for IRS action. However, we believe the dollar threshold established by
the IRS for this control was also set too high, which allowed some taxpayers to claim erroneous
TETR amounts without detection. It also could have invited abuse of these claims, particularly
as unscrupulous taxpayers and preparers learned that the IRS was not taking action on these
returns.


13
  Calculated as follows: 52,360 taxpayers included in our analysis of questionable cases not examined by the IRS
multiplied by the maximum standard amount of $60 = $3,141,600 (which most likely should have been claimed).
These taxpayers actually claimed $49,896,486. Thus, $49,896,486 - $3,141,600 = $46,754,886, and 50 percent of
this amount equals $23,377,443.
                                                                                                         Page 12
                    Although Strong Efforts Were Made, a Significant Amount
                        of the Telephone Excise Tax Overcollected From
                          Individual Taxpayers May Never Be Refunded



Processing instructions for IRS employees
As discussed, when an individual taxpayer claimed one amount on the tax return and a different
amount on Form 8913, and the difference was more than the specified dollar threshold, the return
was routed to the Error Resolution function, where tax examiners were instructed to correspond
with the taxpayer to determine the reason for the difference. The Internal Revenue Manual
instructions on how to resolve this issue were not clear and provided no guidance on the steps to
take if the taxpayer did not reply.
Standards for Internal Control in the Federal Government state that control activities should be
effective and efficient in accomplishing the agency’s control objectives. However, in the cases
previously discussed, management had not ensured controls were as effective as they should
have been. As a result, inappropriate claims could have been accepted and refunded as filed.
We reported these issues to the IRS early in the 2007 Filing Season. Management agreed to
lower the dollar thresholds for cases with missing or inconsistent documentation and revised the
instructions in the Internal Revenue Manual.

Some Taxpayers Will Be Mailed 2007 Tax Packages Even Though
They Will Not Be Required to File 2007 Tax Returns
Form 1040EZ-T was to be used by certain individuals who did not have to file Federal individual
income tax returns but wanted to get the one-time refund of the Federal excise taxes they had
paid on long-distance or bundled telephone service. Generally, when a taxpayer files a paper tax
return, the IRS mails a tax package to that taxpayer the next year, so he or she can file again.
However, in the case of taxpayers filing Forms 1040EZ-T, the IRS did not want tax packages
mailed in the following year because most of these taxpayers have no taxable income and will
not be required to file subsequent year returns. As a result, tax packages for taxpayers filing a
1040EZ-T were suppressed by the IRS and will not be mailed.
However, we identified 26,068 taxpayers who should have claimed the TETR on a
Form 1040EZ-T but instead filed another Form 1040 series return. Based on the information in
our computer extracts, these taxpayers had no income, no deductions, and no credits other than
the telephone tax excise credit. These taxpayers filed paper returns and did not use a tax
preparer. The IRS program designed to suppress the mailing of subsequent year tax packages
applied only to taxpayers filing Forms 1040 EZ-T and not to taxpayers filing other returns in the
Form 1040 series. Based on further research, we found some of these taxpayers would receive a
regular tax package while others would receive a postcard. Postcards are sent to taxpayers who
used a computer to prepare their 2006 tax returns but filed paper returns; they describe the
advantages of electronic filing and cost about 20 cents each for printing and postage. The
regular tax packages are sent to those who filed paper tax returns but did not use a computer to
prepare the returns. The regular tax packages cost about 65 cents each for printing and postage.


                                                                                          Page 13
                        Although Strong Efforts Were Made, a Significant Amount
                            of the Telephone Excise Tax Overcollected From
                              Individual Taxpayers May Never Be Refunded



Of the 26,068 tax returns we identified, 16,263 (62 percent) meet the criteria for the taxpayers to
receive postcards and 9,805 meet the criteria for the taxpayers to receive regular tax packages
next year. Based on further discussions with management, it appears the IRS may change the
programming for 2008 to discontinue sending postcards to those who prepare their paper returns
using a computer. However, we have been unable to verify whether this programming will be
implemented for 2008. Although 26,068 tax returns is not a large number when compared to the
almost 700,000 Forms 1040EZ-T filed, the receipt of postcards or tax packages does create a
burden for these taxpayers. It also creates additional costs to the IRS for preparing and mailing
the documents and answering telephone calls or correspondence associated with them.
We advised IRS officials of this condition during the audit, and they requested the details for the
26,068 taxpayers so they could suppress postcards and tax packages from being mailed next
year. 14

Recommendation
Recommendation 3: The Commissioner, Wage and Investment Division, should follow up
on the 26,068 taxpayers we provided to the IRS to ensure the postcards or tax packages are
suppressed from being mailed next year.
         Management’s Response: The Commissioner, Wage and Investment Division,
         agreed with this recommendation and will manually suppress the 2007 tax packages for
         filers who did not have a 2006 filing requirement but used an individual income tax form
         to request the TETR instead of using Form 1040EZ-T.

Performance Data Relating to the Telephone Excise Tax Were Not
Always Accurate
Performance measurement data were compiled weekly, and a report was provided to executive
management on the TETR Oversight Committee as well as third parties, including the Treasury
Inspector General for Tax Administration and the Government Accountability Office, for
information purposes. These data included various summarized weekly and cumulative statistics
regarding the refund for individuals and businesses related to specific numbers and dollars of
returns filed, various performance indicators developed, and compliance issues. The data were
used by management on the TETR Oversight Committee to help make decisions and formulate
strategies for addressing TETR issues during the 2007 Filing Season.




14
  We identified only those taxpayers with no income or deductions. Other taxpayers with income below certain
levels, resulting in zero tax, would also have been exempted from filing tax returns, and may not need a tax return
package sent to them in the future.
                                                                                                            Page 14
                    Although Strong Efforts Were Made, a Significant Amount
                        of the Telephone Excise Tax Overcollected From
                          Individual Taxpayers May Never Be Refunded



During the course of our audit work, we identified portions of the performance measurement
report that contained inaccurate information. The inaccuracies existed because data for the
weekly reports were being extracted from IRS files that contained cumulative yearly data rather
than weekly data.
Accurate performance data are necessary for managers to compare actual performance to
planned or expected results and to provide management officials and external stakeholders with
data necessary to make decisions regarding an agency and its goals. Inaccurate data could result
in unsound decisions by management and can give external stakeholders a false perception of a
program’s success.
During the audit, we notified the IRS of the inaccurate information, and it took immediate
corrective actions to revise the incorrect information and to ensure the proper computer files
were accessed to prepare future reports. Because this issue was identified relatively early, and
because the IRS took immediate corrective action, we do not believe inappropriate decisions
were made based on the inaccurate data.




                                                                                           Page 15
                    Although Strong Efforts Were Made, a Significant Amount
                        of the Telephone Excise Tax Overcollected From
                          Individual Taxpayers May Never Be Refunded



                                                                                    Appendix I

        Detailed Objective, Scope, and Methodology

Our overall audit objective was to determine whether the IRS was taking proper steps to
facilitate the refunding of the Federal excise tax on toll telephone services. To accomplish this
objective, we:
I.     Determined whether all forms and instructions were updated to allow taxpayers to claim
       the appropriate telephone excise tax credit.
       A. Determined whether the IRS had a coordinated implementation plan for the TETR
          and discussed plans and reviewed documents related to this implementation.
       B. Reviewed changes made to the U.S. Individual Income Tax Returns (Form 1040
          series) and the related instructions, including instructions related to the standard
          amounts individual taxpayers could claim. We also analyzed the standard amounts
          allowed for basis and reasonableness.
       C. Determined what documentation was required to substantiate amounts claimed and
          what efforts were made by the IRS to ensure the amounts claimed were appropriate.
II.    Determined whether the IRS effectively advertised and communicated to the appropriate
       taxpayer segments the available opportunities for the tax credit.
       A. Discussed outreach efforts made by the office of Stakeholder Partnerships, Education,
          and Communication.
       B. Reviewed IRS.gov (the public IRS web site) for information provided to various
          taxpayer segments regarding the telephone excise tax credit.
       C. Identified and reviewed any other published material or other media used to
          communicate provisions of the telephone excise tax credit to taxpayer communities.
III.   Determined whether the IRS properly modified computer programs as they related to the
       telephone excise tax credit.
       A. Determined how the credit was treated on the various tax forms, including the
          Form 1040 series, and determined whether the IRS had provided a separate line for
          taking the credit or allocated it to a miscellaneous refundable credit line.
       B. If the tax returns addressed the telephone excise tax credit on separate lines, contacted
          the analysts responsible for programming, reviewed the relevant documentation
          needed to make these changes, and reviewed any computer programming-related
          documents.
                                                                                           Page 16
                       Although Strong Efforts Were Made, a Significant Amount
                           of the Telephone Excise Tax Overcollected From
                             Individual Taxpayers May Never Be Refunded



        C. Identified all tax returns allowed the telephone excise tax credit and reviewed early
           filed returns to ensure:
             1. The credits were properly posting to the Master File.1
             2. Claimed amounts were properly supported (or within the standard amounts on
                individual returns).
             3. Amounts claimed in excess of tolerances were identified and properly processed.
             4. Taxpayers qualifying for the credit had, in fact, claimed the credit.
                (We worked with another audit team to identify individual tax return issues. We
                made computer extracts of returns on which the credit was not taken and returns
                on which credit amounts were more than the standard amounts. We randomly
                sampled (nonstatistical) the first three records in each extract to assess the
                accuracy of the data and determined the data to be reliable. Tests conducted to
                assess the data’s reliability included matching extracted data to original IRS
                databases and also verifying that the returns met required criteria.)
IV.     Determined whether the IRS made provisions for the telephone excise tax credit as it
        applies to individuals not otherwise needing to file tax returns.
        A. Discussed outreach efforts specific to those individuals not required to file tax
           returns.
        B. Reviewed the form/forms the IRS had developed for these taxpayers for accuracy and
           clarity.
V.      Determined whether the IRS took steps to identify and protect the TETR program from
        fraudulent claims.
        A. Discussed with the project coordinator whether this issue had been considered and
           what steps had been implemented to protect against fraudulent claims.
        B. Evaluated any controls implemented to protect against fraud for effectiveness and
           efficiency.
VI.     Determined why some taxpayers claimed excessive amounts of the credit.
        A. Reviewed the Form 8913 and its instructions to determine whether procedures and
           instructions were clear as to the amounts that are authorized to be claimed.
        B. Reviewed and analyzed a random nonstatistical sample of 30 returns on which an
           excessive amount of TETR appeared to have been claimed on Form 8913. We


1
 The Master File is the IRS database that stores various types of taxpayer account information. This database
contains individual, business, and employee plans and exempt organizations data.
                                                                                                          Page 17
                      Although Strong Efforts Were Made, a Significant Amount
                          of the Telephone Excise Tax Overcollected From
                            Individual Taxpayers May Never Be Refunded



            selected our random nonstatistical sample by using a random selection computer
            program to identify 30 cases from the population of 28,049 taxpayers (processed
            through February 24, 2007) filing a Form 8913 with a TETR amount claimed that
            exceeded a specific dollar amount. We used a random nonstatistical sample because
            we were not projecting outcomes from our sample.
        C. Obtained and reviewed audit reports available on taxpayers whose audits resulted in
           reduction of the amounts claimed. Also held discussions with tax examiners
           reviewing TETR returns to determine causes for excessive claims.
VII.    Determined why some taxpayers did not claim the credit and whether the IRS had plans
        to allow these taxpayers to claim the credit in the future.
        A. Selected a random nonstatistical sample of 500 taxpayers who had not claimed the
           credit. We selected our random nonstatistical sample by using a random selection
           computer program to identify returns from the population of 24,894,530 taxpayers
           (processed through April 4, 2007) filing a return but not claiming TETR. We used a
           random nonstatistical sample because we were not projecting outcomes from our
           sample.
        B. Developed a list of standard questions to ask the taxpayers when contacted.
        C. Contacted nine2 taxpayers who had prepared their own returns and determined why
           they did not claim the credit.
        D. Determined whether the IRS had any additional actions planned to address those
           individuals that did not claim the credit.
VIII.   Determined whether the IRS had controls and procedures in place to properly work
        duplicate returns (taxpayers who filed both a Request for Refund of Federal Telephone
        Excise Tax (Form 1040EZ-T) and a Form 1040 series return).
        A. Discussed with the project coordinator whether this issue had been considered and
           what steps had been implemented to identify and prevent or reject duplicate returns.
        B. Evaluated any controls and procedures implemented to prevent duplicate claims.
        C. Evaluated any controls and procedures implemented to prevent claims from being
           disallowed when a second return was filed to claim the TETR not claimed on the
           original return.




2
 Nine is the maximum number of people that can be contacted to collect information under the Paperwork
Reduction Act (5 C.F.R. § 1320.3(c)) (1995) without approval from the Office of Management and Budget. Time
constraints prevented us from obtaining this approval.
                                                                                                    Page 18
                       Although Strong Efforts Were Made, a Significant Amount
                           of the Telephone Excise Tax Overcollected From
                             Individual Taxpayers May Never Be Refunded



IX.     Determined whether the IRS made provisions to address individuals not required to file
        tax returns.
        A. Determined whether programming was in place to ensure the filing of a
           Form 1040EZ-T did not establish new filing requirements for the individual.
        B. Determined how and whether the IRS had estimated the number of affected
           individuals.
X.      Determined whether efforts made by the Compliance function were adequate to deter and
        prevent excessive TETR claims.
        A. Obtained and evaluated IRS performance measurement data regarding the claims as
           provided weekly by IRS personnel. We determined the accuracy of the data by
           comparing IRS data to data extracted from the Treasury Inspector General for Tax
           Administration Data Center Warehouse3 and resolved any discrepancies. A
           computer extract was made identifying returns in which the TETR was claimed by
           filing a Form 8913. We scanned records in the extract to assess the accuracy of the
           data and determined the data to be reliable. Tests conducted to assess the data’s
           reliability included matching extracted data to original IRS databases and also
           verifying that the returns met required criteria.
        B. Reviewed and analyzed a statistically valid sample of 600 returns with TETR claims
           for amounts greater than the dollar threshold levels and determined whether the
           returns had been frozen and selected for audit. Our sample was chosen from the
           population of 12,122 taxpayers (processed through May 19, 2007) who claimed
           TETR by filing a Form 8913 with a claim amount greater than the dollar threshold.
           We selected our sample using a 95 percent confidence level, 15 percent expected
           error rate, and 5 percent precision.
        C. Analyzed the extract of claims filed on Form 8913 to determine whether suspicious
           and egregious claims existed by focusing on large-dollar claims, common preparers,
           common amounts, etc.




3
  The Data Center Warehouse is a collection of IRS databases containing various types of taxpayer account
information that is maintained by the Treasury Inspector General for Tax Administration for the purpose of
analyzing data for ongoing audits.
                                                                                                             Page 19
                   Although Strong Efforts Were Made, a Significant Amount
                       of the Telephone Excise Tax Overcollected From
                         Individual Taxpayers May Never Be Refunded



                                                                               Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Kyle R. Andersen, Director
Larry Madsen, Audit Manager
L. Jeff Anderson, Lead Auditor
Greg A. Schmidt, Lead Auditor
Kyle D. Bambrough, Senior Auditor
Douglas C. Barneck, Senior Auditor
Bill R. Russell, Senior Auditor
Joseph Butler, Information Technology Specialist
Arlene Feskanich, Information Technology Specialist




                                                                                        Page 20
                   Although Strong Efforts Were Made, a Significant Amount
                       of the Telephone Excise Tax Overcollected From
                         Individual Taxpayers May Never Be Refunded



                                                                             Appendix III

                          Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Acting Chief of Staff C
Assistant Deputy Commissioner for Services and Enforcement SE
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
Director, Campus Compliance Services, Small Business/Self-Employed Division SE:S:CCS
Director, Communications, Liaison, and Disclosure, Small Business/Self-Employed Division
SE:S:CLD
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Director, Earned Income and Health Coverage Tax Credits, Wage and Investment Division
SE:W:EITC
Director, Examination, Small Business/Self-Employed Division SE:S:E
Director, Media and Publications, Wage and Investment Division SE:W:CAR:MP
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Director, Tax Forms and Publications, Wage and Investment Division SE:W:CAR:MP:T
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Deputy Commissioner for Services and Enforcement SE
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE




                                                                                     Page 21
     Although Strong Efforts Were Made, a Significant Amount
         of the Telephone Excise Tax Overcollected From
           Individual Taxpayers May Never Be Refunded



                                                   Appendix IV

Management’s Response to the Draft Report




                                                          Page 22
Although Strong Efforts Were Made, a Significant Amount
    of the Telephone Excise Tax Overcollected From
      Individual Taxpayers May Never Be Refunded




                                                     Page 23
Although Strong Efforts Were Made, a Significant Amount
    of the Telephone Excise Tax Overcollected From
      Individual Taxpayers May Never Be Refunded




                                                     Page 24
Although Strong Efforts Were Made, a Significant Amount
    of the Telephone Excise Tax Overcollected From
      Individual Taxpayers May Never Be Refunded




                                                     Page 25
Although Strong Efforts Were Made, a Significant Amount
    of the Telephone Excise Tax Overcollected From
      Individual Taxpayers May Never Be Refunded




                                                     Page 26
Although Strong Efforts Were Made, a Significant Amount
    of the Telephone Excise Tax Overcollected From
      Individual Taxpayers May Never Be Refunded




                                                     Page 27
